                                                                                          Legal Services Corporation
                                                                                          Office of Inspector General




                                                                      April 22, 2005

To the Board of Directors
Legal Services Corporation


Report on the Financial Implications of the 3333 K Street Lease


At the February Legal Services Corporation (LSC) Board of Directors' meeting, I
briefed the Board on the financial implications of the 3333 K Street, NW, lease
that was entered into by the previous LSC Board of Directors and previous LSC
President in 2002. The OIG conducted this review after hearing concerns from
Congress and OIG staff as well as members of LSC management.

This report transmits to you two recent independent appraisal reports that
assessed the lease as well as information on other costs related to the lease at,
and the move to 3333 K Street. This report contains no recommendations but
rather is being provided to assist the LSC Board in determining any future
actions. The following is a brief summary of the appraisers' reports and OIG's
conclusions. To fully understand their conclusions, I recommend that you read
both appraisers' reports.

CONCLUSION

Based on the two attached appraisal reports, the OIG calculates LSC will
overpay between $1.23 million and $1.89 million in rent over a 10-year period as
a result of paying above market rent, depending upon the degree to which LSC
actually received an above market tenant improvement allowance.' Two
Washington, D.C., based commercial real estate appraisal firms (Joseph J. Blake
& Associates and MillenniuM Real Estate Advisors) independently found that
LSC pays above market rent for its lease at 3333 K Street. Based on information
provided by the appraisers, the OIG calculated that LSC could have saved at
least $680,000 over a 10-year period by remaining in its existing space at 750
First Street, NE. Also, LSC would not have incurred $440,000 in costs

1
  As a result of management comments, OIG recalculated the estimated overpayment under two
scenarios, one giving full credit for the unusually high tenant improvement allowance, and one
using a more normal tenant improvement allowance. The $1.23 million assumes that LSC would
receive the full $2 million tenant improvement allowance.                           3333 K Street, NW, 3rd Floor
                                                                                         Washmgton, DC 20007-3522
                                                                                         Ph: 202.295 1500 Fax, 202.337 6616
                                                                                         www.olg.lsc.gov
associated with the move. In addition, the OIG calculated that LSC may be due
a rent credit because it was charged for 45,000 square feet when it only occupied
42,852 square feet from June 2003 until very recently.

BACKGROUND

In 1998, LSC began pursuing the idea of purchasing its own building in order to
provide LSC with higher visibility and a sense of permanence. LSC believed a
permanent home would also cap LSC's future occupancy costs. In 2001, the Bill
and Melinda Gates Foundation offered $4 million to partially fund the purchase of
a permanent headquarters for LSC. In April 2001, at the suggestion of outside
advisors, key members of LSC established a supporting organization-the
Friends of the Legal Services Corporation (FriendsFto make such a p ~ r c h a s e . ~
One of the stated goals in Friends' Articles of Incorporation is to acquire, hold
and manage assets for use by LSC where doing so may result in lower costs or
greater efficiencies for LSC.

On July 2, 2002, Friends purchased a 5-story, 60,000 square foot commercial
office building located at 3333 K Street. The day before, July 1,2002, LSC
entered into a 10-year lease agreement with Friends for 45,000 square feet of
office space and 50 parking spaces at the property. (The lease term actually
began on June 1,2003 when LSC occupied the space.) LSC agreed to pay
$1.71 million per year for 45,000 square feet, the equivalent of $38 per square
foot, for the entire lease term, plus $100 per month per space for 50 parking
spaces. (LSC subsequently acquired two additional parking spaces at the same
rate.) LSC did not pay a security deposit and pays no annual pass through costs
such as electricity. The lease agreement provides that Friends pay up to
$2 million in build out costs for LSC's office space3. The lease does not contain
a renewal option, nor does it provide for the ownership of the building to pass to
L S C . ~The lease also specifies that in the event the mortgagor, Bank of America,
forecloses on the building LSC must continue to pay rent for the duration of the
lease.




2
  Since its inception, Friends has altered its Board composition in such a manner that neither LSC
nor key members of LSC retains control of Friends. Furthermore, in the recent past Friends
began taking calculated measures to gain distance and independence from LSC. Currently, the
actual relationship between Friends and LSC is unclear.
 This is an atypical tenant improvement clause because unspent tenant improvement funds, if
any, are to be returned to the landlord. Traditional tenant improvement clauses are dollar certain
because any unspent tenant improvement allowances are transferred to the tenant as rent
yedits.
 Friends' current charter states that if Friends ceases to exist and after Friends' liabilities are
extinguished, then Friends' remaining assets will be turned over to LSC.
METHODOLOGY

The OIG hired two Washington, D.C., based commercial real estate appraisal
firms to evaluate the lease. The appraisers worked independently of one another
and each represented that it conducted its work in accordance with the appraisal
industry's professional ethics and standards. The appraisers had access to
documents pertaining to the leases of 3333 K Street and 750 First Street that
LSC and Friends provided to the OIG pursuant to an OIG document request.
The OIG held one joint meeting with the appraisers to ensure that both had the
same understanding of the questions to be answered. No specifics of the
appraisals were discussed in the joint meeting. Each appraiser was asked to
answer the same series of questions designed to help the OIG determine
whether LSC pays fair market rent at 3333 K Street and whether LSC saved
money by moving from 750 First Street. The 01G also wanted information as to
whether there were intervening market factors that arose between July 2002,
when the lease was signed, and November 2004, when the appraisals began,
that could impact the assessment. Additionally, the OIG reviewed available
documentation related to the number of square feet actually occupied by LSC
and to the costs of relocating to 3333 K Street.

SUMMARY OF APPRAISERS' FINDINGS

Both appraisers concluded that LSC's rent exceeded the market rate at 3333 K
Street. Based on the appraisers' reports, the OIG calculates that LSC will
overpay between $1.23 and $1.89 million dollars over the 10-year lease.

Blake Ao~raisal

Based on Blake's analysis, the OIG calculates that LSC will pay between $1.38
and $1.89 million above market rent over the 10-year lease depending upon the
degree to which LSC actually received an above market tenant improvement
allowance5. These calculations are in Appendix A. The OIG calculates LSC has
already overpaid at least $650,000 through January 2005. LSC will continue to
pay above market rent for the space it is occupying until at least June 2010. The

5
  The Blake report found that LSC's tenant improvement allowance was $10 per square foot
above market, for a long-term (10-year) lease, which could require market rates be adjusted
upward by $1.OO per square foot per annurn. Because of the atypical tenant improvement clause
in the LSC lease, it was not known as of July 1,2002, whether LSC would receive the full value of
the tenant improvement allowance. Thus, there would be no way to determine with certainty the
impact that the tenant improvement allowance would have on market rent on July 1, 2002. As a
result, the OIG performed two calculations, one of which assumed that LSC received the full
value of the $2 million tenant improvement allowance and one that assumed a typical tenant
improvement allowance. The first calculation included an upward adjustment of $1.OO per square
foot per annum in market rent to Blake's average market rent calculation of $26.42 for July 2002.
The second calculation used Blake's average market rent figure of $26.42. However, because
LSC did not start paying rent until June 2003, the OIG used Blake's assumptions in its chart on
page 83 to determine total rent costs from June 2003 to May 2013 under both scenarios.
savings LSC will realize in the last years of the lease term will not offset LSC's
overpayment during the first seven years of the lease.

LSC will realize greater annual savings from 2013 on out, assuming that LSC can
obtain a lease extension at the same rate of $38 per square foot with no pass
through costs and below market prices for parking spaces. However, it will still
take several years beyond 2013 before LSC recoups the overpayment on the
original lease, The OIG is concerned that Friends has proposed a lease
extension with less favorable terms than the current lease, in that LSC would pay
pass through costs beginning in June 2013. This proposal could reduce or
perhaps even eliminate any such future savings.

Blake also concluded that LSC's rent is higher than the rents of the other tenants
in the building and is therefore less favorable to LSC.

MillenniuM A ~ ~ r a i s a l

Based on MillenniuM's analysis, the OIG calculated that LSC will overpay
between $1.23 and $1.74 million in above market rent over the 10-year lease
term, again depending upon the degree to which LSC actually received an above
market tenant improvement allowance. These calculations are at Appendix B.

Although MillenniuM did not include the kind of 10-year chart provided by Blake,
the OIG determined that under MillenniuM's assessment the average rental rate
LSC should have paid in June 2003 is either $27.38 or $28.40, depending on
whether there is a $1.OO per square foot adjustment for the $2 million dollar
tenant improvement allowance. MillenniuM estimated a market target rate of
$25.50 per square foot in July 2002 and then adjusted that rate by floors (see
pages XI-2 and XI-3). MillenniuM did not calculate an average rate for the space
LSC occupied. The OIG determined the average rental rate by using
Millennium's per floor rates and applying it to 45,000 square feet that LSC
~ e a s e d .Applying
              ~       Blake's formula to develop the market rent for 3333 K Street,
the OIG calculates the LSC will overpay between $1.23 and $1-74million over
the 10-year lease depending on whether LSC received the full benefit of the $2
million tenant improvement allowance.

Based on the above, the OIG calculates LSC has already overpaid by at least
$635,000 through January 2005. LSC will continue to pay above market rent for
the space it is occupying until at least June 2010. The savings LSC will realize in
the last years of the lease term will not offset LSC's overpayment during the first
seven years of the lease.

As with the Blake analysis, LSC will realize greater annual savings from 2013 on
out, assuming that LSC can obtain a lease extension at the same rate of $38 per

  Because Millenium used 42,852 square feet, the OIG added 2,148 square feet to the fourth floor
to equate to 45,000 square feet, the same square footage that Blake's numbers were based on.
square foot with no pass through costs and below market prices for parking
spaces. It will also take several years beyond 2013 before LSC recoups the
overpayment on the original lease.

MillenniuM also concluded that LSC's lease was less favorable than the leases of
the other tenants of 3333 K Street.

 2004 Market Conditions
Both appraisers determined that as of November 2004, LSC's lease is less
favorable than those of the other tenants at 3333 K Street, including new leases
let with other tenants since LSC moved into the building. The appraisers also
found that LSC's lease is less favorable than the leases of comparable rentals in
the Georgetown area. Thus, the appraisers found that the changes in the
Georgetown rental market did not alter their conclusions that LSC is paying
above market rent for its space at 3333 K Street.

No Financial Benefit in Movina from 750 First Street
Both appraisers found that the 10-year cash outlay would have been less if, in
2002, LSC had stayed in the existing space of approximately 40,000 square feet
at 750 First Street, a Class A building near Capitol Hill, instead of leasing 45,000
square feet of space at 3333 K Street, a Class B building in Georgetown.

Blake stated that the aggregate cost of LSC's existing space at 750 First Street
for a 10-year lease would have been about $17 million; while LSC's 10-year
costs at 3333 K Street are about $17.7 million or $680,000 more (see pages 138-
141).~MillenniuM stated that the LSC gross tenant cash outlay for 3333 K Street
is $17.7 million while a similar outlay at 750 First Street would have been
$16.1 million, a difference of $1.6 million (see page 3).8 The appraisers'
numbers also do not take into account the $440,000 in un-reimbursed costs
associated with the move to 3333 K Street, discussed below.

LSC Incurred an Additional $440.000 Cost bv Movinq from 750 First Street

As discussed above, in addition to the lease costs, the OIG identified
approximately $440,000 in moving costs incurred by LSC. The moving costs
include the build out of the OIG's space, furniture purchases, moving vans and
labor, a security system, and wiring.


7
  According to Blake, when both are compared based on the same square footage of leased area
and the same number of parking spaces, the lease at 3333 K Street costs less than a lease at
750 First Street.
8
  MillenniuM also stated that if tenant improvement allowances are included, the net tenant outlay
for 3333 K Street is $346,000 less than the net outlay would have been at 750 First Street.
Because the gross tenant cash outlay represents the total amount of actual appropriated funds
that LSC would have spent on rent at 750 First Street and will spend on rent at 3333 K Street, the
OIG believes that the gross tenant cash outlay is the better methodology to assess whether the
move was financially beneficial.
Potential Rent Credit

LSC's lease is for 45,000 square feet, but a re-measurement in April 2004
confirmed that LSC had been occupying only 42,852 square feet. After some
negotiation, LSC and Friends devised a solution to the disparity by providing
additional space to LSC on the fourth floor to bring LSC up to approximately
45,000 square feet. LSC continued to pay Friends through October 2004 for the
2,148 square feet of space not provided until LSC started renovations on the
fourth floor. The OIG estimates that LSC will have overpaid at least $1 15,000
from the start of the lease payments until the date LSC occupied the additional
space.

The OIG is concerned that Friends' recent proposed lease amendment contains
a proposal to credit LSC with $82,500 in build out costs instead of providing a
rent credit for the entire period LSC did not occupy the space and paying for all
build out costs.

Future Work

The OIG review of the lease at 3333 K Street raised a number of issues requiring
additional OIG work. The OIG will initiate reviews in the following areas, as
needed.

      Whether there are factors other than total rent payments that make the
      leasing arrangement with Friends more favorable to LSC despite its
      overpayment for rent expenses.
      Whether the amount of space currently leased is justified based on the
      amount of space needed for LSC to accomplish its mission.
      Whether there were any conflicts of interest pertaining to LSC1s
      relationship with Friends and if so whether they were dealt with
      appropriately.
      Whether there were any breaches of fiduciary duty.

I will continue to keep the Board and the LSC President informed as this office
conducts these reviews.



Kirt West
Inspector General

Enclosures: Blake Appraisal Report
            MillenniuM Appraisal Report
                                                                            APPENDIX A

     OIG Calculations of Lease Overpayment Based on Blake's Appraisal
                             (adjusted to 2003)

        Calculations Without Adjustment for Tenant lmprovement Allowance
              Annual      Pass   Adj Mkt       LSC     Difference   LSC         Annual
   Year        Rent       Thnr    Rent         Rent   (Mkt - LSC)   Sq Ft      Difference
2002 Base     $26.42
Escalation    102.5%
New Base      $27.08

   2003
   2004
   2005
   2006
   2007
   2008
   2009
   2010
   201 1
   2012




        Calculations Adjusted for $2 Million Tenant Improvement Allowance


   Year
              Annual
               Rent
                          Pass
                          Thru
                                 Adj Mkt
                                  Rent
                                               LSC
                                               Rent
                                                      7
                                                      Mrkt - LSC
                                                                                Annual
                                                                               Difference


Adj Base      $27.42




                                           $37.31
                                           $37.24
                                           $37.18
                                           $37.1 1
                                           $37.05
                                           $36.98
                                           $36.90
                                           $36.83
                                           $36.75
                                           $36.67

Total Projected Overpayment                                                    ($1.381.916)




                                           7
                                                                         APPENDIX B

  OIG Calculations of Lease Overpayment Based on MillenniuM9sAppraisal
                             (adjusted to 2003)

            MillenniuM Appraisal Without Adjustment for Tenant Improvements
                 Annual    Pass    Adj Mkt    LSC
  Year            Rent     Thru      Rent     Rent
2002 Base        $26.7 1
Escalation       102.5%
New Base         $27.38

    2003         $27.38    $0.00   $27.38    $37.31
    2004         $28.06    $0.32   $28.38    $37.24
    2005         $28.76    $0.64   $29.40    $37.18
    2006         $29.48    $0.97   $30.45    $37.1 1
    2007         $30.22    $1.32   $31.54    $37.05
    2008         $32.72    $1.67   $34.39    $36.98
    2009         $33.54    $2.04   $35.58    $36.90
    2010         $34.38    $2.41   $36.79    $36.83
    201 1        $35.24    $2.80   $38.04    $36.75
    2012         $36.12    $3.20   $39.32    $36.67

Total Projected Overpayment
                                                                     -        ($1,744,062)



            Calculations Adjusted for $2 Million Tenant Improvement Allowance

                 Annual    Pass    Adj Mkt   LSC        Difference   LSC       Annual
   Year           Rent     Thru     Rent     Rent      (Mkt - LSC)   Sq Ft    Difference
2002 Base       $26.71
T.I. Adj         $1.OO
Adj Base        $27.71
Escalation      102.5%
New Base

    2003
    2004
    2005
    2006
    2007
    2008
    2009
    2010
    201 1
    2012

-
Total ProJectedrpayment                                                      ($1,233.997)
                                                                      APPENDIX C


                EVALUATION OF MANAGEMENT'S RESPONSE

The following is the OIG's evaluation of the Board's response to the OIG draft
report. The Board's response can be found in its entirety in Appendix D.

The OIG's report is based on the work of two independent commercial real estate
appraisers. These appraisers followed professional standards and considered
appropriate factors, including expected rental rates over the term of the lease,
the comparative cost of leasing other space, and potential market changes in
Washington, DC, and its Georgetown submarket. The Board's response did not
cause the OIG to change its conclusion that LSC is paying above market rent for
its office space at 3333 K Street, NW. Based on the Board's response, however,
the OIG decided to show this overpayment as a range that depends upon the
degree to which LSC actually received an above market tenant improvement
allowance. The OIG attempted to determine whether LSC had received the full
benefit of the $2 million tenant improvement allowance. The OIG was unable to
perform the work because LSC did not have records documenting whether the
entire $2 million was used or how much was used.

The OIG has chosen not to respond to each management comment. The
purpose of this report is to transmit the results of the professional appraisals and
to provide information to the LSC Board for future decisions involving the LSC
lease. The OIG believes that the comments, in many instances, misinterpreted
or misread the results of the appraisals. We validated our calculations with Blake
since the OIG applied Blake's assumptions to both Blake's and Millennium's
determination of market rent. The OIG is confident in our calculations that LSC
will overpay between $1.23 million and $1.89 million in above market rent.
                                                                                          APPENDIX D

                                                                             Legal Services Corporation
                                                                             America's Partner For Equal Justice




                                   MEMORANDUM

TO:         Kirt West, Inspector General

FROM:       Frank B. Strickland, Chairman of the Board

DATE:       April 20,2005

SUBJECT: LSC Response to OIG Draft Report on the Financial Implications of the 3333 K
         Street Lease


      Attached is the revised LSC response to the OIG draft report. As you know, the response
was approved unanimously by the Board of Directors in a notational vote in March.
                                                                                                 Legal Services Corporation
                                                                                                 America's Partner For Equal Justice




                                                               RESPONSE

                                                                 OF THE

                                               LEGAL SERVICES CORPORATION
Lillian R BeMer
Charlottenrille, VA
VireOZai                                                         TO THE
Robertl.Dieter
Boulder, CO
                                    OFFICE OF THE INSPECTOR GENERAL REPORT
Thomas A. Fwntes
Lake Forest UI

Herbert s. C
           am
                               ON THE FINANCIAL IMPLICATIONS OF THE 3333 K
BaMmre, MD

David Hall                                                 STREET LEASE
Boston, MA

M i i D. Md(ay
SBattle, WA

Thomas R. Meites
C h i , IL




Ernestine P. Watlington
Harrisburg, PA




                                                         April 20, 2005


                          NOTE:      LSC has p r e p a r e d t h i s response based on t h e d r a f t
                          r e p o r t p r e p a r e d b y t h e O f f i c e of t h e I n s p e c t o r General.
                          LSC d i d n o t s e e t h e f i n a l r e p o r t p r i o r t o i t s r e l e a s e .

                                                                                                3333 K Street, NW 3" Floor
                                                                                                Washington, DC 20007-3522
                                                                                                Phone 202.295.1500 Fax 202.337.6797
                                                                                                www.lx.gov
     The Corporation has prepared this response to the
Office of the Inspector General's draft lease report. At
the outset, we note that the OIG report is not final.
The report concludes by stating that there are a number
of issues requiring additional OIG work, including an
assessment of "[wlhether there are factors other than
total rent payments that make the leasing arrangement
with Friends more favorable to LSC ... .f r 1 We believe
those other factors are considerable and will further
validate the Board's decision in 2001-2002 to undertake
the move of its existing headquarters from First Street.

     By way of background, the memorandum of
understanding to purchase the K Street property was
signed on March 21, 2002, the lease executed on July 2,
2002, and the property acquired on July 3, 2002, and LSC
took occupancy on June 1, 2003. We note that all but two
members of the LSC Board of Directors and most of senior
management had no involvement with the creation of
Friends of LSC, the decision to purchase a building, or
the leasing of space at 3333 K Street.*

     While current leadership of LSC has had no
involvement in the lease negotiations, the last two
Presidents of LSC (John McKay, now U.S. Attorney for the
Western District of Washington, and former Illinois
Congressman John Erlenborn), and the prior Board of
Directors spent many hours discussing this matter and
many months working on it.3 Those officers and directors
made a business decision after considering many factors,
only one of which was cost, to enter into the K Street
lease. They have as yet had no opportunity to review and
comment on the draft report.

     In its main points, the draft OIG report purports to
establish that (1) LSC overpaid for the 3333 K Street

  OIG draft report, p. 10.
  Seven members of the present Board were sworn into office on April
25, 2003, and one on July 24, 2003. The current LSC President took
office on January 20, 2004 and the current Inspector General began
on September 1, 2004.
  During this 2001-2002 period, the OIG was represented at every
Board meeting and virtually all internal LSC planning meetings where
the transaction was discussed. In addition, the OIG at its request
received a private briefing from Friends' financial advisors
regarding the details of the transaction. The OIG did not once
raise any concerns regarding this matter with the LSC Board or
management.
facility relative to its former First Street space, and
(2) overpaid for K Street relative to fair market value.
LSC believes that the OIG has failed to substantiate
these findings. The assumptions underlying the OIG's
draft report and these alleged findings will now be
examined.

1. The appraisals are not comprehensive and thus are not
meaninqful in determining whether LSC's decision was a
commercially sound transaction and a good business
decision.

     The OIG apparently instructed both appraisers to
prepare an estimate of real estate values as of July
2002. Yet, as the Blake appraisal states (see p. 15), "a
retrospective value estimate is most frequently utilized
in connection with appraisals for state tax,
condemnation, inheritance tax and similar purposes."
Those are of questionable relevance to the wisdom of
LSC's lease because they do not account for market
factors in effect during the term of the lease.

     Whether or not a lease is a commercially wise
arrangement and was fiscally appropriate depends on a
variety of factors including expected rental rates over
the term of the lease and the comparative cost of leasing
other space. Picking a point in time eleven months
before LSC occupied the 3333 K Street space and began to
pay rent, just because LSC signed the lease agreement on
that particular day, on which to determine valuation of a
ten year lease is difficult to understand or justify
because it creates a distorted view of a lease running
from 2003 to 2013.

     The appraisals, apparently on instructions from the
OIG, do not consider potential changes in the market for
office space in Washington DC or its Georgetown
submarket. The appraisals also did not, and maybe could
not, consider all the financial and non-financial issues
reviewed by the Board that might have made the K Street
transaction desirable even if a slightly higher rent may
have been paid in the first couple of years of the lease.
The conclusions drawn from the appraisals by the OIG also
do not correctly factor in tenant improvements made to
the building at the landlord's expense.
     The most useful comparison for evaluating the wisdom
of the K Street lease is the alternative cost of leasing
space for the period of June 2003 through May 2013 using
realistic and updated market information and assumptions.
LSC management considered commissioning such a current
appraisal that would take into account and evaluate the
various factors addressed herein, but concluded it would
be unnecessary to do so.

2. The appraisals actually demonstrate that the leasing
arrangement is favorable to LSC relative to the cost of
remaininq at 750 First Street.

      Although both appraisals note that the initial rent
at K Street is higher than the estimated rent for 750
First Street, both appraisals show that there is a
"cross-over" effect in the third year of the lease at
which point the K Street rent, which is fixed, becomes
relatively lower with the differential becoming
increasingly advantageous in each succeeding year over
First Street. The Blake report estimates that LSC's rent
 (including pass-throughs) beginning July 2005 at the
First Street location would be $38.61 per square foot,
while the MilleniuM report estimates LSC's rent would be
$38.10. Yet, LSC is paying $38.00 for its current
headquarters. LSC's rate at 3333 K Street is fixed
through May 2013, while the First Street lease contained
both annual base rent increases and a building operation
pass-through, standard clauses in Washington commercial
leases.

     In addition, the difference would continue to grow,
with Blake estimating LSCfs effective rent at First
Street would have increased to $47.44 in 2012 and
MilleniuM estimating it would rise to $42.89 at that
time. LSC will still be paying $38.00 at K Street. The
LSC lease for the First Street property, however, was to
expire in 2007. We can only speculate what the rent
adjustment and annual escalation factor might be after
2007. It is a reasonable assumption even at this date
that these likely will be higher than the rates reflected
in the projections upon which the appraisers made their
calculations. Certainly operating on such an assumption
in 2002 was appropriate.

     LSC is also paying $100 per month per parking space
for 52 spaces, for an annual cost of $62,000. A
comparison of three commercial garages within two blocks
of 3333 K Street found current rates of $215 to $226 per
month for unreserved parking spaces. According to the
appraisals, in 2002 LSC was paying $140 per month at
First Street for 25 spaces for a total of $42,000
annually. The building owner could raise that fee at any
time. As with the rent, LSC's $100 per month cost at K
Street is fixed for the entire ten year life of the
lease.

     The Blake report acknowledges that LSC's current
leasing arrangement is cheaper than First Street when
factoring in the additional space and parking (see OIG
draft report, footnote 7 and Attachment I ) . 4 Even
accepting all the assumptions used in the Blake report as
valid, the effect, according to Blake, is that LSC
acquired 5,000 square feet of space and 27 parking spaces
for only $68,000 per year or a total of $680,000 over the
ten years. 5

     The MilleniuM estimate assumes no base rent increase
beyond 2.5 percent per year through 2013 at First Street
and no parking fee increase during the entire ten year
period. Those assumptions are unrealistic, considering
that a lease remained to be negotiated in 2007 for this
office space on Capitol Hill where pricing is currently
at a premium. Even so, and also without adjusting for
the additional space and parking, MilleniuM concludes
that the net cost to LSC of the K Street lease is less
than what would have been paid at First Street when the
value of the build-out is factored in, $15.7 million and
$16.1 million, re~pectively.~The OIG draft report
dismisses this conclusion in a footnote (see OIG draft
report, footnote 8), focusing instead only on the alleged
gross cost difference of $1.6 million.

3 . The O I G report ignores the f a c t that the prior LSC
management had concluded i n 2001 that the Corporation
needed additional space.

     Prior LSC management and the previous Board
concluded, after a study involving outside consultants,

  Blake report, p. 3.
  Using a conservative fair market valuation of $200 per month per
parking space, the 27 parking spaces by themselves are worth $64,800
annually.
  MilleniuM report, p. 3, table.
that LSC required more space than the 40,000 square feet
it was occupying at First Street. The cost of LSC
leasing additional space at First Street, assuming space
was available there, along with any build-out costs
associated with such space are overlooked in the draft
OIG report.

     Even after incorporating questionable assumptions
regarding future rent and parking costs and denying LSC
any credit for the $2 million build-out, the most the OIG
report supports is that in moving from First Street to K
Street, for an average annual cost of $68,000 (Blake) or
$160,000 (MilleniuM), LSC obtained an additional 5,000
square feet of office space and 27 additional parking
spaces. Most objective observers would consider either
figure to be fiscally sound.

4.   The draft OIG reportrs conclusion that LSC will pay
$1.23 to $1.89 million over the market rate for the ten
year life of the lease is predicated on erroneous
assumptions.

     The conclusion in the OIG draft report that LSC is
paying over market rates appears actually to have been
reached by the OIG using assumptions that are incorrect
and do not properly take into account the rental history
of the building. Neither appraiser reached the OIG's
conclusion or endorsed the OIGrs apparent methodology.

     First, the $1.89 million overpayment estimate
"credited" to the Blake report is derived in part from
the average rent paid by other tenants at 3 3 3 3 K Street
as of mid-2002. In fact, the basic assumption, that the
average rent paid by those tenants at that time
constituted the full fair market rate, is incorrect. Due
to unusual circumstances involving the previous owner of
the building, it was the view of Friends' real estate
advisors at the time of the transaction that 3 3 3 3 K
Street was encumbered by below-market leases.7

     Those tenants had leases which pre-dated Friendsr
purchase of the building. Many of the leases had been in
effect for some time, one as far back as 1994, and were

  The Blake report notes that the asking rents for the building were
at the time less than Blake's assessment of fair market value. See
Blake report, p. 79.
for small, oddly-configured, difficult to lease, niche or
inferior space.8 In the Washington DC commercial real
estate market, a party seeking a new lease for 45,000
contiguous square feet will not, upon taking occupancy,
get the same rental rate as a niche tenant who signed a
lease nine years earlier.

     Second, the LSC lease provided for tenant
improvement concessions of up to $44 per square foot,
which the Blake report acknowledges was $9 to $19 above
the typical packages of the day. The total concessions
LSC received were up to $2 million in tenant
improvements, $400,000 to $850,000 more than normal
market contracts provided. The comparable rent from the
Blake report assumes just $15 per square foot in tenant
improvement concessions. The difference between that and
$44 per square foot is $1.3 million, nearly 70 percent of
the OIG's estimate of LSC's alleged overpayment. The
OIG's calculation of the alleged overpayment does not
correctly take that into a c ~ o u n t . ~

     Third, the OIG's calculation presumes that the
average rent charged other tenants at 3333 K Street will
increase by only 2.5 percent annually. That assumption
is already incorrect based on the leases in the property
that have been renewed or renegotiated since mid-2002.10
In addition, as the Blake report notes, most long-term
commercial leases in the Washington DC market after the
fifth year have an upward rate adjustment above the




  The leases in question took effect in 1994, 1995, 1996, 1997, 1998,
2000, and 2002.
  The OIG draft report offers an alternative calculation under which
LSC's alleged overpayment is only $1.38 million, based on the
assumption that LSCrs tenant improvement package was $10 per square
foot above the market. In fact, however, in determining estimated
fair market rent for the K Street property, the Blake report assumed
$15 per square foot in tenant concessions, $29 below what LSC
received. (See Blake report, p. 80.)Thus the $500,000 adjustment is
insufficient.
   Friends has placed a premium on renewing leases with existing
tenants to avoid build-out and marketing costs. While the terms for
the renewed leases have included rent increases substantially over
2.5 percent, the average rent paid by other tenants in the building
appears still to be below the full market prices. However, Friends
is attempting to bring the lease rates up to full market value as
soon as is practicable as leases are renewed or renegotiated.
annual 2.5-3.0 percent inflation and pass-through
increases.11

     Fourth, the OIG's calculation assumes that the
market price for each parking space is $150 per month and
will increase by only 3 percent a year. As noted above,
this assumption may not even withstand cursory review
given the rates currently charged for comparable parking
in Georgetown. Changing the initial estimated market
price for each parking space to $200 per month would
reduce the alleged overpayment by more than $325,000.

     The $1.75 million overpayment estimate, which the
draft OIG report ascribes to MilleniuM, suffers from all
the same errors.

5 . The draft O I G report does not address any b e n e f i t that
may have accrued t o LSC by virtue of the move.

     A final analysis of the wisdom of LSCrs move to K
Street must take into account the benefits of the
particular space to LSC given the needs and mission of
LSC. The draft OIG report, in identifying future work,
raises as an issue "[wlhether there are factors other
than total rent payments that make the leasing
arrangement with Friends more favorable to LSC... ." I 2

     Such an assessment is an essential part of the
analysis and appropriately should be completed before any
report is finalized and released publicly. Benefits
accruing to LSC requiring review include at least:

            Adequate, contiguous space for LSC staff;

l 1 See Blake report, pp. 46, 76 and 79.  According to Blake, the
typical increase is $2.50 per square foot.
    On March 10, 2005, LSC management received a Draft and
Confidential document from the OIG entitled "Audit of LSC's Two
Million Dollars ($2,000,000)Landlord Contribution," in which the
OIG requests that LSC Management "Obtain a full and detailed account
from FoLSC of all costs associated with the $2 million landlord
contribution" and that it "Conduct a detailed analysis of the costs
to determine the reasonableness of these expenditures." This
request further demonstrates that the OIG1s evaluation of the LSC
lease is incomplete. Until the analysis of the non-monetary benefits
to LSC of the lease and the analysis of the value of the tenant
improvements are completed, the delivery of a report on the lease by
the OIG is premature.
            Increased efficiency by having office space
            specifically designed to meet LSC's needs;

            Stabilizing LSCrs cost of space for ten years
            with indisputable, substantial long-term
            savings when a new lease for the building is
            signed;

            The ability to flexibly adjust to projected
            demand for space, especially taking into
            account a dramatically different budgetary
            environment than LSC was facing four or five
            years ago;

            The intangible and tangible benefits to LSC of
            having its own headquarters, rather than being
            a tenant in a building, an issue seriously
            considered and a conclusion reached by the
            previous Board and presidents;13 and

            The long-term gains of having a nonprofit
            landlord which was specifically created, and
            whose charter provides as its purpose, to
            benefit LSC and support its mission of
            delivering legal services to the poor.


     With respect to this last point, the OIG suggests
that a subject requiring a future review is "whether
there were any conflicts of interest pertaining to LSC's
relationship with Friends ...." There is no question that
Friends of LSC was created by LSC for the specific
purpose of purchasing and operating a building on behalf
of LSC.14 The relationship between LSC and Friends was
fully disclosed and widely known.

l 3 The desire for a national home for the Legal Services Corporation
was the motivating factor of the Bill and Melinda Gates Foundation
in making the significant grant which made the purchase of the 3 3 3 3
K Street building possible.
l 4 The draft OIG report notes that LSC does not have an interest in
the building at the expiration of the lease. As the OIG knows, the
entire transaction surrounding the purchase of 3 3 3 3 K Street
property was structured to conform to OMB and congressional budget
rules, and was informally approved by both OMB and the Senate and
House Appropriations Committees. If LSC had a direct legal interest
in the building upon the expiration of the lease, that arrangement
     LSC was involved in every key decision made by
Friends: whether to acquire 3333 K Street, how much to
bid, and how to finance it.l5 Friends and LSC were
attempting to structure a transaction which met the
demands of the bank providing the mortgage (which
included keeping Friends a viable nonprofit entity), was
cost-effective to LSC, met the budgetary and programmatic
needs of LSC, and was fiscally responsible to the
taxpayers.

     In conclusion, the OIG draft report is an incomplete
view of this transaction. Even so, had LSC remained at
its previous First Street location, per square foot lease
costs would exceed what LSC is paying at 3333 K Street
beginning this year, with the gap to grow wider each
succeeding year for the remainder of the ten year lease
and likely beyond.

     Moreover, had LSC remained at First Street, the
total cost over the ten years would be comparable if not
higher (and definitely higher if LSC had leased the
additional space its management and Board thought was
needed). The draft report also states that the OIG will
try to determine if there were benefits to LSC of the
move at a later date, although evaluating the benefits
would seem to be a necessary element in assessing the
wisdom of the transaction entered into by the previous
Board and Presidents.

     The OIG draft report also implies that Friends of
LSC might have slightly overpaid for the K Street
building. However, given the value of office real estate
in Washington DC today and the development of the
surrounding K Street neighborhood since the building was
purchased, one might as easily conclude that this
purchase was prescient.16 An article from the March 9,
                          -          -



would create different and significant issues. However, the charter
of Friends requires it to act in the interest of LSC and provides
that, should Friends be dissolved, all of its property will be
transferred to LSC.
1 5 ~ h eOIG draft report notes that at the present time neither LSC nor
key members of LSC retain control of Friends.
l6 Friends of LSC acquired the building for $14.2 million after a
sealed bidding process in which two other parties bid $14 million.
The District of Columbia in 2004 assessed the value of the building
at $14.8 million for tax purposes. The foresight of the prior LSC
Board and senlor management 1s confirmed by the fact that the vacant
2005 issue of The Daily Record attests to the strength of
the Washington office space market (See Attachment 11).
It notes that many nonprofits and associations will have
to consider leaving the District of Columbia for the
suburbs. LSC does not have that option; it is by law
required to be located in the District.1 7

     The OIG draft report looks back to 2002, uses
several highly questionable assumptions, does not take
into account all relevant factors, and still fails to
prove its contention that LSC made a mistake in leasing
3333 K Street. The Board is mindful that the LSC leasing
arrangement, any future leases, and other decisions
regarding the occupancy of office space must be fiscally
sound and in the best interest of LSC, and the Board
fully intends to exercise appropriate oversight. Knowing
what we know today, and considering all the factors
including LSC's programmatic requirements and the need to
be a responsible steward of public funds, this Board
cannot conclude that LSC's decision to move to 3333 K
Street was either inappropriate or fiscally unsound.




lot next door when the building was acquired is today an eight story
luxury residential building in which the average sale price of
condominiums was, according to The Washington Post, $1.5 million
(The Washington Post, March 19, 2005, p. C1). Moreover, Friends of
LSC recently received an offer, albeit verbal, of $20 million for
3333 K Street.
  Section 1003 of the Legal Services Corporation Act (42 U.S.C.
2996b).
Attachment I



T h i s t a b l e c o m p a r e s t h e p e r s q u a r e f o o t r e n t o f 750 F i r s t S t r e e t t o
3333 K S t r e e t . A l l numbers a r e f r o m t h e B l a k e R e p o r t , e x c e p t t h a t
2012 h a s b e e n i m p u t e d b e c a u s e t h e B l a k e R e p o r t a c t u a l l y c a l c u l a t e d
2002 - 2 0 1 1 . The a d j u s t e d r e n t f o r K S t r e e t c r e d i t s LSC f o r t h e
p a r k i n g s u b s i d y b u t n o t f o r t h e $ 2 m i l l i o n b u i l d - o u t , which i f
a d j u s t e d f o r m a r k e t t e r m s would r e d u c e t h e e f f e c t i v e r e n t p a i d b y
LSC b y a n o t h e r $1-$2 p e r s q u a r e f o o t .          The g r o s s amount p a i d b y LSC
i s $38.00 p e r s q u a r e f o o t i n each y e a r .




                      Estimated Rent Per               Adjusted Rent Per
     Year                         -
                    Square Ft. 1st Street                           -
                                                      Square Ft. K Street
     2003                      36.52                            36.96
     2004                      37.55                            36.89
     2005                      38.61                            36.81
     2006                      39.69                            36.73
     2007                      42.67                            36.66
     2008                      43.82                            36.57
     2009                      45.00                            36.49
     2010                      46.21                            36.40
     201 1                     47.44                            36.31
     2012                      48.77                            36.23
Attachment I1

Wednesday, March 9,2005                                              Real Estate, Page 3A

The Daily Record (Baltimore, MD)
Office price hikes on the horizon
By Sofia Kosmetatos
Daily Record Business Writer

A rebounding office market will likely bring rental price spikes in some national markets
as early as next year, according to a national market outlook for commercial real estate
executives by Delta Associates.

The report by the research arm of Alexandria, Va.-based real estate firm Transwestern
Commercial Services recommends developers with permits already in hand move
forward with speculative construction about a year to 18 months before the spikes occur
"in order to hit the market in stride."




Delta expects rents to spike first in Los Angeles and Orange County, Calif., in 2006,
followed by the Washington region in 2007 and 2008. Since last summer, rents have
stabilized across the country and have already begun rising in these stronger areas,
according to the report.

In the Washington region, parts of Northern Virginia will see spikes first, followed about
a year later by parts of suburban Maryland and Washington proper.

Atlanta, Chicago, Houston and Dallas/Fort Worth will be next, seeing rents spike from
2008 to 2009.

Rent growth will vary substantially by market but should be between 3 and 4 percent per
year from 2005 to 2007, the report said.

Office market conditions have improved significantly around the country during the past
year, evidenced by greater absorption and a steadily declining vacancy rate, the report
said.

The Washington region led the country with the lowest vacancy of 9.2 percent at year-
end, followed by Orange County at 9.6 percent, New York at 10.3 percent and Los
Angeles at 10.8 percent. All four markets were below the 13.2 percent national vacancy
rate.

Washington, New York and South Florida will maintain the lowest vacancy rates --
below 9 percent -- during the next expansion, which is expected to last through the end of
the decade.

Levels of construction are modest in most markets except for Washington and New York.
In Washington, however, much of the new supply is preleased to federal government
agencies.

"There's no doubt that every office market in the D.C. area is tightening," said David
Houck, senior vice president and manager of The Staubach Co.'s Washington office.

In anticipation of demand, speculative construction has already started in Washington,
and Northern Virginia "is raring to go," he said.

But whether there will be rental price spikes in Washington proper is questionable, he
said. Rents have risen and will continue to rise in downtown Washington, unlike in parts
of the Northern Virginia market that softened after the technology bust.

From the tenants' perspective, any future price hikes will be unsustainable, Houck said.

"More and more firms, particularly.. .nonprofits and associations, are going to be forced
to look at Northern Virginia or suburban Maryland as alternatives to control their costs,"
he said.
                                                                            Legal Services Corporation
                                                                            Office of Inspector General




Inspector General
Kirt West
                                                              May 5,2005


        To the Board of Directors
        Legal Services Corporation

        Explanation for Omission of Bank of America Appraisal

                 At the April 30, 2005, closed session of the Board meeting, the Board
        expressed concern that the OIG had not included the Bank of America appraisal
        in its lease report. I can appreciate the concern of the Board because it might
        have appeared that important information had been left out of the OIG report. I
        assure you that this is not the case. My goal as your Inspector General is to
        provide you with the most accurate information so that you can carry out your
        duties. I also want to ensure that any report coming out of the OIG is fair and
        balanced.

               Unfortunately, I did not have any notice that this issue would come up and
        was therefore not prepared to discuss the specifics of the Bank of America
        appraisal. I am committed to providing the Board an explanation of why the Bank
        of America appraisal did not accompany the OIG report. I understand that the
        Board only became aware of the appraisal shortly before the Board meeting. I
        wish that I had also been made aware of the Board's concerns so that I could
        have provided better information to the Board during the meeting. The following
        explanation should alleviate any concerns that I may have attempted to deceive
        or intentionally mislead the Board.

              I take my responsibilities very seriously and want you to know that upon
       returning to the office on Monday I immediately began an effort to determine
       when and how the OIG came into possession of the Bank of America appraisal
       and whether I had reviewed it. The following is my report to the Board.

              Sometime in early January while going through documents provided to the
       OIG, my staff found what appeared to be the cover page and table of contents of
       a Bank of America appraisal. However, the actual appraisal was not attached
       and was not among the other documents provided. As a result, staff had to go to
       parties outside LSC and eventually obtained a complete copy of the appraisal in
       mid-January. OIG staff immediately forwarded the document to the two
       independent commercial real estate appraisers for their consideration. My staff

                                                                           3333 K Street, NW 3rd Floor
                                                                           Washington, DC 20007-3522
                                                                           Phone 202.295.1500 Far 202 337 6616
                                                                           www.oig Isc gov
determined that it was not material and therefore did not provide me with a copy,
did not inform me of its existence and did not include it in the lease report.

        I have now personally reviewed the appraisal and can state with certainty
that I had never seen it. I have reviewed it in the context of the materials that my
staff reviewed in preparing the lease report. Having conducted a thorough
personal review, I unequivocally support my staff's decision not to include the
Bank of America appraisal in the lease report. The purpose of the report was to
provide information to the LSC Board for future decisions with respect to the LSC
lease. The OIG appraisers issued their appraisals for the stated purpose of
determining whether LSC is paying fair market rent and intended for internal use
by LSC management. On the other hand, the stated purpose of the Bank of
America appraisal was to aid in the proper underwriting and loan classification for
lending purposes and is intended for use by Bank of America, not LSC.
Moreover, as indicated by one of OIG's appraisers, the Bank of America
appraisal contains limited applicable data and very limited analysis particularly
with respect to the rent analysis. Accordingly, the Bank of America appraisal is
not material to the OIG's determination of whether LSC is paying fair market rent.

        Even though in my judgment it was unnecessary to refer to the Bank of
America appraisal, the Board may conclude otherwise. Accordingly, I am issuing
some supplemental information to accompany the lease report. The
supplemental information will contain an explanation as to why the OIG
determined that that the Bank of America appraisal was not material to the OIG
lease report and also puts that appraisal in the context of other documents that
the OIG had reviewed and also decided not to include in its report. The
supplemental information will include a complete color copy of the appraisal and
is included with this memorandum that has been sent to all Board members and
nominees. Additionally, it will be provided to each Congressional staff member
who has either already received the OIG lease report or will be receiving it
shortly.

       Again, as I state in the supplemental information, the information is being
provided to the Board to assist it in executing its fiduciary duties in ensuring the
prudent expenditure of Congressionally-appropriated funds. It is up to the Board
to decide what action, if any, it might take with respect to the lease report as well
as any other information provided by the OIG.

      I hope this alleviates any concerns the Board may have had. As always, I
am available at any time to discuss this or any other matter with you.



Kirt West
Inspector General
                                                                                        Legal Services Corporation
                                                                                        Office of lnspector General




lnspector General
Kirt West
                                                                       May 5,2005

            To the Board of Directors
            Legal Services Corporation


            Supplemental Information to the April 22, 2005, OIG Report on the Financial
            Implications of the 3333 K Street Lease


        At the April 30, 2005, executive session of the Legal Services Corporation (LSC)
        Board of Directors meeting, the Board asked the lnspector General why an
        appraisal commissioned by Bank of America, the mortgagee of 3333 K Street,
        was not included with the OIG lease report. The Bank of America appraisal was
        not included because it is not material to the issue of whether LSC is paying fair
        market rent to its landlord, Friends of Legal Services Corporation (Friends).

        The purpose of the OIG lease report was to provide relevant information
        regarding LSC's lease in order to assist the Board of Directors in exercising its
        fiduciary duty to ensure that the funds appropriated by the Congress are
        managed prudently and in accordance with the purpose for which the funds are
        appropriated. In order to accomplish this, the OIG commissioned two appraisals
        conducted by independent professional appraisers. Based on the appraisals, the
        lease report concluded that LSC is paying above market rent.

        The stated intended use of the Bank of America appraisal is to aid in proper
        underwriting and loan classification for lending purposes. The intended user of
        the appraisal is Bank of America. The purpose of that appraisal is to provide the
        market value of the property, assuming the existence of the LSC commitment to
        lease 45,000 square feet at $38 per square foot. On the other hand, the stated
        intended use of the two OIG commissioned appraisals is to assist LSC
        management in internal decision making. The intended user of those OIG
        appraisals is LSC. The purpose of those appraisals is not merely to provide the
        market value of the property, but additionally to determine whether LSC is paying
        fair market rent for its space at 3333 K Street, at the date of the transaction and
        assuming an arms-length transaction.         '
                                                    Thus, the Bank of America appraisal,



        1
         This is demonstrated by contrasting the detailed analysis of fair market rent contained in the
        Blake appraisal with the cursory analysis in the Bank of America appraisal.
                                                                                       3333 K Street. NW 3rd Floor
                                                                                       Washington, DC 20007-3522
                                                                                       Phone 202.295.1500 Fax 2O2.337 6616
                                                                                       www.olg.lsc.gov
unlike the OIG commissioned appraisals, is not material to a determination of
whether LSC is paying fair market rent.

Even so, the OIG provided a copy of the Bank of America appraisal to the OIG-
commissioned independent appraisers prior to completion of their appraisals.
One appraiser indicated that the Bank of America appraisal contained limited
applicable data and very limited analysis particularly with respect to the rent
analysis. The OIG reviewed many other documents in preparing its lease report,
none of which were transmitted with the OIG's lease report. Some of these,
however, led to the conclusion that the Bank of America appraisal is not material
to the OIG lease report and is in fact useful only for its stated intended use - to
assist Bank of America in determining whether to loan Friends the funds to
purchase 3333 K Street. The following two documents exemplify this:

                Grubb & Ellis, the listing agent for the seller of 3333 K Street,
                prepared a Confidential Offering Memorandum. This memorandum
                indicates that it would likely take until 2010 before the market rental
                rates for the building would reach LSC's rate of $38.00 per square
                foot. The listing agent's conclusion is consistent with the OIG's
                calculations in its lease report.

                Dawn Carpenter of EOS Financial, Friend's outside consultant,
                prepared an April 14, 2003, memorandum on the LSC lease to
                address concerns raised by the OIG. The memorandum states that
                Bank of America mandated the lease rate of $38.00 per square
                foot. The memorandum supports its conclusion by reference to the
                Studley Report and an analysis by CB Richard Ellis. The
                memorandum states that Friends relied on the Studley Report to
                support LSC's rent of $38.00; the Studley Report shows the
                average offered rental rate in Georgetown for Class A space at the
                time to be $40.80 per square foot.3 The memorandum further
                states that Friends relied on a CB Richard Ellis analysis that the

2
  The Bank of America appraisal took into account the LSC lease and thus cannot provide a basis
for concluding on the issue of fair market rent. Prior to agreeing to make a loan to Friends, Bank
of America required that Friends obtain LSC's commitment to lease 45,000 square feet for $38.00
per square foot for 10 years. Further, the Bank of America appraisal was based on the purchaser
entering into a non-arms length rental rate and occupying all of the vacant space. LSC President
and Board member John Erlenborn at one time was serving concurrently as Friends' President
and Board member. In October 2001, Mr, Erlenborn recognized the difficulty of a non-arms
length transaction and the need for LSC and Friends to enter into contract negotiations.
Consequently, he submitted a letter of resignation to the Friends Board stating that his
simultaneous service to LSC and Friends created the appearance and possibly the reality of a
conflict of interest. Moreover, Mr. Erlenborn was concerned that Friends was discussing the
possibility of purchasing a building without conferring with the Bush White House and OMB,
instead relying on conversations with the Clinton administration.
3
  The Studley Report lists only 15,033 square feet of Class A available space and 201,571 square
feet of non-Class A available space. These were offered rents, which may not be the actual rents
that are paid once the parties enter into a lease agreement.
                average Class A market rent in Georgetown was $38.50. However,
                3333 K Street is not a Class A building and according to the
                Studley Report, the average non-Class A space in Georgetown at
                that time was offered at $32.39. It is noteworthy that even Ms.
                Carpenter's memorandum, the purpose of which was to support
                Friends' charging LSC $38 per square foot, does not mention the
                Bank of America appraisal.

As mentioned, the OIG provided the Bank of America appraisal to its two
independent appraisers for their consideration. The independent appraisers
nonetheless concluded that LSC agreed to pay above market rent in July 2002
and continued to pay above market rent as of November 2004. The independent
appraisers reviewed the leases that Friends has entered into with non-LSC
tenants since July 2002 when LSC signed its lease with Friends. In all instances,
the rent paid by the non-LSC tenants is below market thereby at least creating
the appearance that LSC's above market rent is subsidizing the rent of the non-
LSC tenants. The appraisers' conclusions also are supported by Friends
submission to the D.C. Board of Real Property Assessments for 2003 in which
Friends states that a market rent of $28.00 per square foot for that calendar year
is appropriate for the building. This is consistent with the $28 range for 2003 that
the OIG calculated using the independent appraisals.

The information here provided is intended as a supplement to information
previously provided to the Board in the OIG lease report. That report, for
example, informed the Board that should LSC enter into a lease extension for
another ten years under existing terms it would take several years beyond 2013
before LSC recoups the overpayment on the original lease; a proposed lease
extension by Friends would have LSC pay pass through costs that could reduce
or even eliminate any future savings; a signed July 20, 2004 MOU between
Friends and LSC, in which LSC would pay rent under the Building Owners &
Managers Association (BOMA) method of measurement and pay for pass
through costs, could increase LSC's annual rent rate to more than $43.00 per
square foot or by more than $200,000 per year without even factoring in the
potential payment of pass through costs4

The Bank of America appraisal was intended to support the loan made by Bank
of America to Friends, LSC's landlord. The OIG lease report, on the other hand,
is intended to provide the LSC Board with information relevant to its decision-
making regarding LSC's occupancy of 3333 K Street. In conclusion, the Bank of




4
 At an April 2004 Friends Board meeting, it was reported that 42,852 square feet that LSC was
occupying at the time would be equivalent to 48,800 under the BOMA standards.
America appraisal was not included with the OIG lease report because it is not
material to the issue of whether LSC is paying fair market rent to its landlord.
The appraisal is attached, however, for informational purposes.




Kirt West
Inspector General

Enclosure: Bank of America Appraisal
                                      RESPONSE
                                        OF THE
                            LEGAL SERVICES CORPORATION
                                        TO THE
                   SUPPLEMENTAL INFORMATION TO THE APRIL 22,2005,
                    OIG REPORT ON THE FINANCIAL IMPLICATIONS OF
                               THE 3333 K STREET LEASE


        On April 22,2005, the Office of the Inspector General (OIG) of the Legal Services
Corporation released a "Report on the Financial Implications of The 3333 K Street Lease." The
report was accompanied by a detailed response fiom the Board of Directors of the Corporation
which rejected much of the analysis and many of the conclusions reached by the OIG, and noted
that "this Board cannot conclude that LSC's decision to move to 3333 K Street was either
inappropriate or fiscally unsound." That report, which is attached, provides additional
information with respect to the transaction.

       On April 27,2005, LSC received a copy of an appraisal commissioned by Bank of
America and undertaken in May, 2002 by the firm Chaney & Associates. The appraisal was
commissioned by Bank of America to help determine whether it should make a loan to Friends
of Legal Services Corporation ("'Friends") for the purchase of the 3333 K Street building to be
used as LSC headquarters. The appraisal concluded that the price proposed to be paid by Friends
was reasonable and that the estimated rent to be paid by LSC "is within the range of the
comparables," conclusions completely at odds with the two retrospective appraisals
commissioned by the OIG.' The OIG obtained this conflicting appraisal by mid-January but
chose not to reveal its existence to either the Board or LSC Management, even though OIG staff
was aware of the Board's concerns about the OIG report weeks before its release. The LSC
Board questioned the Inspector General about this matter in an executive session on April 30,
2005.

         On May 5, 2005, the Inspector General of the Legal Services Corporation released
"Supplemental Information" to the OIG April 22 report. The apparent purpose of this
"Supplemental Information," which was provided to Congress before it was provided to the LSC
Board and without giving the Board a chance to respond, is to justify the OIG's withholding of
critical information fiom the Board. The Inspector General does so by asserting that the Chaney
appraisal is not material because it was intended for use by the Bank of America and it failed to
properly analyze what a fair market rent for LSC would be. The first argument is unconvincing
and the second appears incorrect.




1
  As is noted in the appraisal by Joseph J. Blake & Associates, "a retrospective value estimate is most frequently
utilized in connection with appraisals for state tax, condemnation, inheritance and similar purposes." LSC objected
in its response to the OIG Report to a number of the assumptions in the retrospective appraisals, a position now
validated by the Chaney appraisal.
1. The Chanev appraisal appears more credible, not less, than those commissioned bv the
-
OIG.

        The Chaney appraisal was commissioned by the Bank of America in 2002 for the purpose
of assisting the Bank in determining whether it should provide a loan to Friends to finance the
purchase of 3333 K Street. Friends was a newly created non-profit corporation with no operating
history. Bank of America, in order to justify the loan, had to satisfy itself that the purchase price
was reasonable and that the rent being paid by the anchor tenant, LSC, was reas~nable.~

      In short, real money was on the line. The appraisal, rather than being invalid or
immaterial because Bank of America paid for it and was the intended user, would appear to be
more valid and more reliable than the appraisals commissioned by the OIG in 2005.

        In contrast to the Chaney appraisal, the appraisals commissioned by the OIG in 2005
were retrospective, did not take into account the 2003-2013 term of the lease but focused purely
on July 2002, eleven months before LSC moved into the building. It also failed to correctly
factor in tenant improvements made to the building at the landlord's expense and contained
numerous other questionable assumptions.

        At the April 30 executive session of the Board, it was suggested to the Inspector General
that his Office review the Chaney appraisal and explain the differences between it and the two
appraisals the OIG paid for. The Inspector General has chosen not to do so. Accordingly, LSC
staff has prepared Attachment A which lists some of the major differences in assumptions
between the Chaney appraisal and the Blake appraisal3commissioned by the OIG. The Board
now concludes that the Chaney appraisal appears to be based on more realistic and appropriate
assumptions and, accordingly, that its conclusions on fair market rent are more likely correct
than those made by the OIG using the OIG-commissioned appraisals.

2. The "Supplemental Information" incorrectlv describes the Chanev appraisal's
calculation of fair market rent.

        The Inspector General simply asserts that the Chaney appraisal "is not material to a
determination of whether LSC is paying fair market rent.'* The only evidence to support that
assertion is that "[olne appraiser indicated that the Bank of America appraisals contained limited
applicable data and very limited analysis particularly with respect to the rent analysis."'

         In fact, the Chaney appraisal used four rental transactions which had closed earlier in
2002 and a fifth pending on the market at that time. Based on the terms, and factoring in an
above market $40 per square foot build-out allowance, Chaney concluded that a fair market


  LSC could and can terminate the lease for lack of a sufficient appropriation. Therefore, the Bank had to consider
scenarios where LSC would not be the building's anchor tenant.
' As in the LSC response to the OIG report, LSC is again using the Blake appraisal for comparative purposes
because the Blake appraisal is more explicit about its assumptions and methodology, making comparisons easier.
4
  Supplemental Information, p. 2.
  Ibid, p. 2.
rental for the 3333 K Street space would be $36.25 per square foot for a 10 year lease, with a 2.5
percent annual increase and a $2.50 bump in the 6" year. Chane then concluded the proposed
$38.00 per square foot is "within the range of the comparables."The $38.00 per square foot
rent proposed to be paid by LSC included no annual increases, no 6thyear bump, and no building
cost pass-through. The Inspector General may choose to disagree with the Chaney estimate, but
it was and remains a legitimate estimate.

        By contrast, the OIG calculations, using the Blake appraisal to estimate LSC's alleged
fair market rent, incorporated a number of highly questionable assumptions. First, as explained
in detail in the earlier LSC response, the OIG calculations are based on an assumption that LSC
received $15 per square foot in tenant improvement concessions rather than up to $44 per square
foot as provided for in the lease agreement. That inaccurate build-out figure accounts for nearly
70 percent of the LSC's alleged overpayment.

       The OIG calculations are based on comparables, 11 of 17 of which date from 2001, rather
than 2002 when the building was acquired or 2003 when LSC began paying rent. Six of the
comparables are transaction under 3,500 square feet, and another 6 were transactions under
11,000 square feet. This is an inappropriate comparison to the 45,000 square feet being rented
LSC. Worse still, three of the comparable transactions were leases that the Blake appraisal itself
said were below market rates. In addition, the Blake appraisal undervalued the parking subsidy
LSC receives from the landlord.

Conclusion

       The Supplemental Information provided by the Inspector General glosses over or ignores
the substantive differences between the appraisals. Instead, he asserts the OIG-commissioned
appraisals are better than the one commissioned by Bank of America because the OIG-
commissioned ones were for the OIG while Bank of America's was for the Bank. He then states
that one unnamed appraiser found the Bank-commissioned appraisal to contain limited data and
limited analysis, with no further explanation or detail. In effect, the Inspector General asserts he
was correct in withholding critical information from the LSC Board and Congress but fails to
state why.

       The Board is not persuaded. The contemporaneous appraisal undertaken by Chaney &
Associates supports the position of the Board in its original response to the OIG report. The OIG
was aware of the Board's views over four weeks before the OIG report and the LSC response
were released to Congress, and the Inspector General now asserts it was acceptable for him to
withhold information supporting the Board's position from the Board because the OIG had
determined "it was not material."

         The only analysis of the transaction undertaken by a party independent of LSC or the
OIG supports the rent being paid by LSC as being within fair market value. That is not only
material, but it confirms the judgment previously made by the Board and further discredits the
OIG's April 22 report.


  chancy appraisal, p. 34.
             MAJOR DIFFERENCES IN ASSUMPTIONS BETWEEN
   THE BLAKE RETROSPECTIVE APPRAISAL (COMMISSIONED BY THE OIG)
                               AND
      THE CHANEY APPRAISAL (COMMISSIONED BY BANK OF AMERICA)

                                  Chanev                          Blake
                      Yay 29, 2002                    January 25, 2005

                      Hay 21, 2002                    July 1, 2002'


                      Provide market value 'as        Provide market value under 2
                      is" and prospective market      scenarios: 'as is" defined as
                      value upon completion of        46% occupied (July 2002
                      renovation 'as an aid in        occupancy rate) and "as if
                      proper underwriting and         stabilized" (95% occupancy -
                      loan classification for         "to aid LSC in internal
                      lending purposes ... by Bank    decision making.
                      of America."
                  1
Outlook for           Neighborhood is in a            "Georgetown office market has
Georgetown            "growth stage" ... "ongoing     shown signs of weakening over
market                development" ... "outlook for   the last 12 months ... we
                      area is considered              expect the subject market to
                      positiveu ... \\off
                                        ice           equalize in the near term."
                      conditions will likely          (Blake, p. 46)'
                      remain stable in the near
                      term with potential
                      undersupply possible if the
                      localu economic recovery
                      continues (Chaney, pp. 14-
                      16)

Comparable      Noted the ongoing and                 "Subjectfs location is
rents - 3333 K planned development                    considered to be a fringe
Street location surrounding 3333 K Street.            location in Georgetown
                Treated it as part of                 submarket." (Blake, p. 30) .
                Georgetown waterfront                 No mention of surrounding
                business district.                    development (some of which
                                                      has since occurred). Blake
                                                      then adjusted all comparable
                                                      rents downward to offset
                                                      their "superiorM location.

                      Three   of 5 comparables were   Only 2 of 17 comps were large
rents - size of       large   transactions like       transactions. Six comps were
property              LSC's   with Friends (45,000    under 3,500 SF and 6 more
                      SF).    No transaction was      were between 5,500 and 11,000
                      under   12,000 SF.              SF. Two comps were about
                                                      18,000 SF and one was about
                                                      22,000 SF.


  Blake stated, "A retrospective value estimate is most frequently utilized in
connection with appraisals for state tax, condemnation, inheritance tax and similar
purposes." (Blake, p. 15)
  The actual facts since 2002 are closer to Chaney's projection then to Blake's
retrospective analysis.
~eeumption/Fact   1        Chaney                               Blakr
               II
Comparable     (All comparables were from          11 of 17 comps were from
rents - time    1 2002.
                                                   Concluded that all 3333 K St.
                                                   leases were below market
Street                market value, so they        value, but used 3 for the
                                                   fair market valuation.

Fair market           Assumes $40/SF tenant        Assumes only $15/SF in
rental                improvement allowance.       setting fair market rent,
calculation -                                      even while noting that LSC
TI package                                         tenant improvement package
                                                   was $44/S~.

Fair market           $35.38/SF assuming no
rent (lstyear,        parking subsidy, and
full service          $36.25/SF assuming free
terms)                parking.

Parking               Values parking at            Values parking spaces at
                      $175/month per spot based    $l50/month based on rate 3333
                      on survey of neighboring     K was then charging. Blake
                      garages.                     did a survey of neighboring
                                                   garages with a result similar
                                                   to Chaney, but discounted it
                                                   for unstated reasons.

Equivalent lst        No specific calculation,     $32.15/SF, but mistakenly
year payment by       but concluded LSC terms      assumes no above-market
LSC, if 3333 K        were "within the range of    tenant improvement package;
lease converted       the comparables."            also, as noted, sets fair
to standard                                        market parking at $150/month.
full service
lease




' Blake's fair market rent estimate is for July 2002. It is not clear what date
Chaney's estimate is for, although Chaney knew LSC would not be moving into the
building until 2003. LSC did not commence paying rent until June 2003.

  Of the $8.96/SF difference in initial fair market value, from $3.75 to $5.00/SF,
depending on the discount rate chosen, can be accounted for simply on the basis of the
differing tenant improvement assumptions, i.e., Chaney's $40/SF versus Blake's $15/SF.
Thus if Blake's estimate were adjusted to $40/SF, his initial fair market rent would
be $30.17-$31.42. This single adjustment eliminates most of the difference between
Blake's fair market rent calculation and Blake's $32.15 estimate of LSC's rent when
converted to standard terms (see below). The result is also similar to the cash
analysis contained in the LSC response to the OIG report, which concluded that nearly
70 percent of the amount that allegedly was paid in above market lease payments
disappeared when the tenant improvement package is correctly accounted for.
                                                                                Legal Services Corporation
                                                                                Office of Inspector General




Inspector General
Kirt West                            MEMORANDUM


     TO:            Board of Directors        A
     FROM:          Kirt West
                    Inspector ~ b n e r a l

     DATE:          June 13,2005

     SUBJ:          OIG Lease Report


     By letter dated May 26,2005, the Board addressed to Congress a response to my
     May 5,2005 memorandum to the Board, in which I provided supplemental information
     to the OIG's lease report. For some reason, I did not receive a copy of the Board's
     response until June 9. In addition, I continue to be perplexed about the Board's
     responses and am sincerely concerned about possible miscommunications. The
     Board's response contains a serious allegation against me, and I am providing this
     response not only to address the allegations against me but also in the hopes of
     clarifying any miscommunication.

     The Board's response and its accompanying cover letter to the Congress states that the
     OIG "withheldnthe Bank of America commissioned appraisal from the Board and "chose
     not to reveal its existence," and that in doing so the IG 'with[held]" critical information
     from the LSC Board and Congress."

                      I DID NOT PERSONALLY WITHHOLD INFORMATION

    First, I did not know about the report or any decision not to disclose it. By memorandum
    dated May 5,2005 (accompanying the supplemental information and attached hereto), I
    provided the Board with an account of how and when the OIG came into possession of
    the appraisal and how it was put to use. As stated in that memorandum: "I have now
    personally reviewed the appraisal and can state with certainty that I had never seen it."
    It is simply not possible for me personally to have "withheld" from either the Board or
    Congress that which I had never even seen.




                                                                               3333 K Street. NW 3rd Floor
                                                                               Washington. OC 20007-3522
                                                                               Phone 202.295.1500 Fax 202 337.6616
                                                                               www.oig.lsc.gov
Memorandum to the Board
June 13,2005
Page 2 of 5


           THE OIG STAFF DID NOT DECIDE TO WITHHOLD INFORMATION

Second, my staff knew about the report and it was provided to the appraisers for their
information. My staff did not discuss with me or among themselves whether or not to
include the Bank of America appraisal to the Board and no one in the OIG ever decided
to withhold information from the Board. After the Board raised this concern, I spoke to
my staff. As the May 5'h memorandum and the supplemental information clearly
establish, the appraisal was not material to the OIG's determination of whether LSC is
paying fair market rent, and I therefore support my staff not including it with the two OIG
appraisals.

       LSC MANAGEMENT HAD IN ITS POSSESSION THE BANK OF AMERICA
            APPRAISAL BEFORE THE OIG RECEIVED THE APPRAISAL

Third, to the best of my knowledge, LSC management had a copy of the Bank of
America appraisal before the OIG obtained a copy. In mid-May 2005, one of my staff
brought to my attention that among the many documents provided to the OIG by LSC
mana ement was a copy of the Bank of America appraisal date stamped June 14,
       ?
2002. Thus, it appears LSC management was aware that it had the appraisal at the
time the Board prepared its response to the OIG draft report and could have brought it
to the attention of the Board or the OIG before issuance of the final report.

Although I can understand you are displeased that you did not know about the Bank of
America appraisal, I can you assure that the information the OIG has provided to the
Board is based on hard, objective evidence, not opinion or subjective judgment. l would
ask that you consider the following which I believe will explain why the Bank of America
appraisal is not helpful in supporting the amount of rent LSC is paying to Friends.

  THE BANK OF AMERICA APPRAISAL IS NOT HELPFUL IN DETERMINING FAIR
    MARKET RENT BECAUSE IT USED CLASS A RENTS TO DETERMINE FAIR
                MARKET RENT FOR A CLASS B BUILDING

Because 3333 K Street is a Class B building, the OIG's two independent appraisers
looked at comparable Class B buildings specifically to determine fair market rental
rates. This was an important and critical element of the appraisal because in 2002
Class A rentals in Georgetown were approximately $8 per square foot higher than Class
B rentals. The Bank of America appraisal, however, failed to distinguish between Class
A and Class B properties. By not distinguishing between classes of buildings (in fact,
the Bank of America appraisal did not even mention that 3333 K Street was a Class B



  The OIG has determined that the date stamped appraisal did not come from the documents that the OIG
received from Friends. Because of the large volume of documents received from both Friends and LSC,
the OIG is not sure exactly when it became of aware of the date stamped copy except that it occurred at
some time after the OIG received the appraisal from Bank of America.
Memorandum to the Board
June 13,2005
Page 3 of 5


building), the Bank of America appraisal overstated the rents for 3333 K Street by using
Class A comparables.

           THE BANK OF AMERICA COMPARABLES WERE NOT ACTUALLY
                              COMPARABLES

Two of the five Bank of America comparables were Class A space: the Watergate
Office Building (Comparable #3) which is not even located in Georgetown and
Washington Harbor (Comparable #4), which is one of the most desirable office buildings
in Washington, D.C. Moreover, a third comparable, the Foundry Building (Comparable
#2),is probably the second most desirable office space in Georgetown (Two major law
firms Foley & Lardner and Swidler Berlin, renting space at Washington Harbor, leased
space at the Foundry Building when they needed to expand but there was no available
space at Washington Harbor.). Inexplicably, the Bank of America appraisal
downgraded the Foundry Building in its fair market rent analysis, which only reinforces
the notion that the appraisal was for a purpose other than determining what fair market
rent LSC should pay. A fourth comparable (Comparable # #5) was listed as available
for rent with no existing lease and therefore is in fact not a comparable and should not
have been considered. Thus, the Bank of America appraisal is left with one legitimate
comparable (#I   ) which demonstrates the lack of materiality.

In my supplemental information, I stated that one of the appraisers stated that the Bank
of America contained limited applicable data and very limited analysis particularly with
respect to the fair market rent analysis. Specifically, it contained no analysis of the
relative merits of the comparables nor did it provide any justification for the adjustments
in comparables in determining fair market rent. The Blake appraisal, on the other hand,
contains a detailed discussion of Class B rents. The Blake appraisal also contains an
analysis of each comparable as well as each lease within the comparable building and
provides a rationale for adjustments. Again, this simply demonstrates that the purpose
of the Bank of America appraisal, unlike the OIG-commissioned appraisals, was not to
determine the fair market rent for LSC.*




  The appraisal in question was commissioned by the lender. Consideration of the party that
commissioned the appraisal is important to any assessment of the appraisal's usefulness by another
party andlor for another purpose. For example, lenders are not permitted to use appraisals
commissioned by the borrower in support of a loan transaction and may only use appraisals
commissioned by loan brokers or other lenders if certain strict criteria are met. See Interagency
Statement on Independent Appraisal and Evaluation Functions (issued by the Office of the Comptroller of
the Currency, the Board of Governors of the Federal Reserve System, the Federal Deposit Insurance
Corporation, the Office of Thrift Supervision, and the National Credit Union Administration), 10/28/03.
Memorandum to the Board
June 13,2005
Page 4 of 5



       SUBSTANTIAL EVIDENCE SUPPORTS THE CONCLUSION THAT LSC
                 IS OVERPAYING RENT AT 3333 K STREET

Additional evidence supports the analysis of OIG's two independent appraisers. For
example:

       In the fall of 2001, Grubb & Ellis, the listing agent for the seller of 3333 K Street
       indicated in a Confidential Offering Memorandum that it would likely be 2010
       before the building would achieve a $38 per square foot rate. The OIG lease
       report stated that LSC would be paying above market rent until 2010.

       Friends' submission to D.C. Board of Real Property Assessment states that a
       market rent of $28.00 per square foot for calendar year 2003 is appropriate. This
       is consistent with the OIG1scalculations for 2003 based on the information
       provided by the two independent appraisers.

      An April I,2004, email from Friends Board Member Jack Martin to LSC Senior
      Assistant General Counsel and Friend's staff member Lynn Bulan, and Friends
       Board members Thomas Smegal, Alex Forger, Hulett Askew, Victor Fortuno
      (also LSC General Counsel) and David Richardson (also LSC Comptroller)
      states in pertinent part: "CB Richard Ellis tells us that the rental rate for the first
      floor LSC space would likely fall in the $24-26 range with 2.5% to 3.0%
      escalations. There will likely be 4-6 months downtime to find a user and we'll
      have to provide the tenant with paint and carpet to build out space pursuant to
      Julie's most recent layout suggestion. The rental rate for the fourth floor would
      likely be in the mid-30s plus escalations and passthroughs as the vacant space
      [LSC's Office of Government Relations and Public Affairs now occupies that
      space] has good river views." [Note: On March 23, 2004, eight days earlier,
      Friends had entered into a lease for the non-river view side of the fourth floor with
      Victor Properties, LLC/Penzance Management at $30.45 per square foot with an
      effective rent of $28.55 per square foot considering concessions.] The
      information provided by CB Richard Ellis to Friends is actually below Blake's
      November 2004 market rent projection of $29.00 per square foot for the first
      floor.

      All six leases that Friends has negotiated with non-LSC tenants since July 2002
      are at a below market rate.

These four points are just part of the ovetwhelming weight of the evidence
demonstrating that LSC's rental rate of $38.00 per square foot is above market. The
only evidence to the contrary would be the Bank of America appraisal which, as clearly
demonstrated, rests on a very shaky foundation.
Memorandum to the Board
June 13,2005
Page 5 of 5


I hope this response leaves no doubt that neither I nor my staff withheld any information
from the Board or the Congress. In addition, I hope that the Board can now more fully
appreciate why the Bank of America appraisal does not bear on the question of whether
LSC is paying fair market rent for its space.
